%

20-392

No:

FILED
MAY 1 3 2020
SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK
SUPREME COURT H R

Fatmata Kamara,
Petitioner,
Vs.

New Jersey State Police,
Respondent.

On Petition for a Writ of Certiorari to
the Supreme Court of New Jersey

PETITION FOR A WRIT OF CERTIORARI
Fatmata Kamara
ProSe
833 Edgewood Avenue
Trenton
New JerseyT 08618
Cell: 609-421-5050
E-Mail: fatmabkamara@gmail.com

RECEIVED \

m\nm \

4.

I.

Question Presented

A rule was violated because No Statement was Obtained From Me For the
Preliminary Hearing and Yet I was Terminated. State Police Counsel
used Law Against Discrimination (LAD) and Conscientious Employee
Protect Act) (CEPA) to sweep their unjustified actions against me, under
the rug, and also a pretext to dismissed my case and the use of time
barred.

List of Parties and Related Cases
•

Kamara v. NJ. State Police, No. MER-L-100-18, Superior
Court of New Jersey, Judgement entered May 25th 2018

•

Kamara v. NJ. State Police, No. A-5038-17T2, Supreme
Court of New Jersey, Judgement entered Sept. 30th 2019

•

Kamara v. NJ. State Police, No. A-005038-17, Supreme
Court of New Jersey, Judgement entered Feb. 14th 2020

Opinions Below
The decision by the New Jersey State Supreme Court Dated
February 14th 2020. That order is attached.

Statement of the Case
I reported an over time inappropriate actions and I was removed without
a just cause, due to the fact that no statement was obtained from me for
the Preliminary Hearing and I was terminated. The State Police Counsel
Mr. Freeman, is using (LAD) Law Against Discrimination and (CEPA)
Conscientious Employee Protection Act to sweep their unjustified action
against me, under the rug, and also as a pretext to dismissed my case and
time barred that don’t have a negative effect on me due to the Collective
Bargaining Agreement being a unionized member.

Reasons for Granting the Petition
To avoid erroneous deprivations of the right to rule that there are two
sides to a case or story, yet NO STATEMENT WAS OBTAINED FROM
ME IN THE INITIAL STAGE WHICH WAS THE PRELIMINARY
HEARING AND THE POLICE UPHOLD THE LAW, (THE PARAMOUNT
POLICE AND SUPERIOR POLICE OF THE STATE OF NEW JERSEY)
YET MY RIGHT WAS GROSSLY VIOLATED. Granting the petition will
certainly commence the justice process.

♦

Petition for Writ of Certiorari
Fatmata Kamara, the Pro- Se respectfully petitions this court for a writ of
certiorari to review the judgement of the New Jersey State Supreme.

Conclusion
I still have faith working with patient, perseverance and prayer. Hoping
that the Justice system, will be thoroughly review this matter in all
facets, ankles, and lenses of the justices, because the Big Picture is
missing, NO STATEMENT WAS OBTAINED FROM ME IN THE
INITIAL STAGE. (It is like constructing a structure without a foundation,
which is totally impossible and grossly erroneous. That just indicated the
gross abused of power by State Police.) This is the Public Billion dollar
questions the Police initial job is to document information, yet no
statement was obtained from you.

Respectfully Submitted, on this 13th day of May 2020.
Fatmata Kamara
Petitioner/Pro Se.

